HHS/OIG, Audit - "Report on the Medicare Drug Discount Card Program
Sponsor Public Sector Partners," (A-06-05-00062)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Report on the Medicare Drug
Discount Card Program Sponsor Public Sector Partners," (A-06-05-00062)
July 10, 2006
Complete
Text of Report is available in PDF format (634 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of
our review were to
determine whether Public Sector Partners (PSP) complied with Federal
requirements to (1) ensure that beneficiaries did not exceed their
transitional assistance (TA) limits, (2) apply TA funds only to covered drugs, (3)
pass on negotiated prices to beneficiaries and
offer the lower of the negotiated prices or the usual and
customary prices, and (4) support the expenditures and withdrawals it reported
to CMS.  PSP properly supported the expenditures it made on behalf of
beneficiaries and the withdrawals from the Payment Management System.  However,
PSP did not have proper procedures in place to ensure that it always complied
with Federal requirements to ensure that beneficiaries did not exceed their TA
fund limits, apply TA funds only to covered drugs, and pass on negotiated prices
to beneficiaries and charge the lower of the negotiated prices or the usual and
customary prices.  As a result, CMS overpaid PSP $420,875  for beneficiaries who
exceeded their TA limits and $231,260 for excluded drugs for the period July 12,
2004, through May 31, 2005.  In its written comments on our draft report, PSP
agreed that errors had occurred, but it did not agree with all of the causes we
identified.  PSP stated that it had worked with CMS to correct its
procedures and had reimbursed CMS for the errors we identified.
We recommended that PSP:  (1)
reimburse CMS for the $420,870; (2) determine whether the amount PSP reimbursed
CMS for excluded drugs included any of the $231,620 identified in the audit and
reimburse the difference; and (3) implement policies and procedures, if it
continues as a prescription drug plan sponsor to ensure that it (a) does not pay
for statutorily excluded drugs with CMS funds and (b) offers negotiated prices
to beneficiaries.